ISSUES PERTAINING TO THE PROPOSED
   NAFTA CROSS-BORDER TRUCKING
      DEMONSTRATION PROJECT
    Federal Motor Carrier Safety Administration
          Report Number: MH-2007-065
         Date Issued: September 6, 2007
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Issues Pertaining to the Proposed                                          Date:    September 6, 2007
           NAFTA Cross-Border Trucking Demonstration
           Project
           Federal Motor Carrier Safety Administration
           Report Number MH-2007-065

  From:    Rebecca Anne Batts                                                              Reply to
                                                                                           Attn. of:   JA-40
           Acting Assistant Inspector General
             for Surface and Maritime Programs
    To:    Federal Motor Carrier Safety Administrator

           Since 1998, we have audited Federal Motor Carrier Safety Administration
           (FMCSA) programs related to the Cross Border Trucking provisions under the
           North American Free Trade Agreement (NAFTA). During this period, the
           Department of Transportation (DOT) and FMCSA have continually improved the
           programs established to address congressional pre-conditions for allowing
           Mexico-domiciled motor carriers to operate beyond the commercial zones 1 along
           the United States-Mexico border. FMCSA actions include increasing inspection
           capacity at the southern border crossings, developing and implementing policies
           for taking enforcement actions against Mexican motor carriers, and establishing
           integrated and accessible data systems with state and Mexican officials.

           On February 23, 2007, the Secretary of Transportation announced a 1-year
           demonstration project (also referred to as a pilot program) that would permit up to
           100 Mexican motor carriers to begin operating beyond the commercial zones.
           According to the Department, the demonstration project will start when the first
           Mexican carrier is granted provisional operating authority by FMCSA to operate
           throughout the United States. The demonstration project will not include carriers
           that transport hazardous materials or passengers. In addition, for each time a
           demonstration project participant crosses the border into the United States, the
           Department has committed to checking the driver’s license and the inspection

           1
               Commercial zones at the southern border generally extend from 3 to 25 miles north of U.S. border municipalities (or
               75 miles within the State of Arizona). Our audit also refers to the operation of Mexico-domiciled motor carriers
               outside of these zones as “long-haul” operations.


                                                                      i
decal on the vehicle. In announcing the project, the Department referred to this
process as checking “every truck every time.”

Section 6901 of the U.S. Troop Readiness, Veterans’ Care, Katrina Recovery, and
Iraq Accountability Appropriations Act, 2007 2 requires the Office of Inspector
General (OIG) to review FMCSA’s preparations for monitoring and enforcing
safety rules among the demonstration project participants. This report presents the
results of our initial audit on the demonstration project. According to Section
6901, prior to the start of the demonstration project, the Secretary is to take such
actions as may be necessary to address the issues raised in our report and submit a
report to Congress detailing such actions.

Our audit objectives, based on Section 6901 provisions, were to determine
whether FMCSA has:

    1. established sufficient monitoring and enforcement mechanisms to ensure that
       Mexican motor carriers that are granted provisional operating authority
       comply with U.S. Federal motor carrier laws and regulations and
       requirements associated with the demonstration project.

    2. complied with each of the requirements contained in Section 350(a) of the
       Department of Transportation and Related Agencies Appropriation Act, 2002
       (FY 2002 Act). 3

    3. established sufficient mechanisms to ensure that provisional operating
       authority is only granted to motor carriers domiciled in Mexico that can
       comply with U.S. Federal motor carrier laws and regulations and
       requirements associated with the demonstration project.

In assessing FMCSA’s mechanisms for granting provisional operating authority to
Mexican motor carriers and for monitoring and enforcing compliance with U.S.
laws and regulations, we based our conclusions on a review of documentation,
interviews with Federal and state officials, direct observation at selected border
crossings, and our prior audit work. However, until FMCSA initiates the
demonstration project, we will not be able to fully test whether the mechanisms
are, in fact, operating effectively.

We conducted this performance audit from June 2007 through August 2007 with
the majority of fieldwork and interviews conducted in June and July. This audit
was conducted in accordance with Generally Accepted Government Auditing
Standards as prescribed by the Comptroller General of the United States. We


2
    Pub. L. No. 110-28 (2007).
3
    Pub. L. No. 107-87 (2001).


                                         ii
performed such tests as considered necessary to detect fraud, waste, and abuse.
Exhibit A further details our audit scope and methodology and prior audits.


RESULTS IN BRIEF
Our review found that FMCSA has implemented significant initiatives to address
Section 350 requirements and cross-border safety concerns. The established
mechanisms for monitoring and enforcing U.S. safety rules and regulations, such
as conducting truck inspections at the border and throughout the United States,
continue to function. Additionally, FMCSA has established mechanisms for
monitoring Mexican carriers and drivers within the United States. It has also
taken actions to address our August 2007 report 4 recommendations regarding
improving data consistency for Mexican driver convictions in the United States.
The Agency is also now reviewing Mexican carriers on site in Mexico and
performing these reviews in accordance with their regulations. Finally, although
not required by Section 350, FMCSA has reviewed Mexican drug and alcohol test
specimen collection facilities.

Despite FMCSA’s significant accomplishments in implementing Section 350
requirements and addressing cross-border safety concerns, we identified three
issues pertaining to the proposed demonstration project. Specifically:

    • FMCSA has not developed and implemented complete, coordinated plans for
      checking trucks and drivers participating in the demonstration project as they
      cross the border. Without having site-specific plans in place and fully
      coordinated with U.S. Customs and Border Protection (CBP) and the states, the
      Department’s commitment to check every demonstration project truck every
      time it crosses the border into the United States is at risk. These checks are
      important because they are intended to ensure that drivers entering the country
      are properly licensed and that trucks entering from Mexico display a decal
      denoting a recent safety inspection.

    • FMCSA needs to take further action so that state enforcement officials
      understand how to implement recent demonstration project guidance for areas
      such as testing English language proficiency among drivers and ensure that
      training initiatives filter down to the roadside inspectors.

    • FMCSA has implemented policies, rules, and regulations that differ slightly
      from the language in 3 of 34 specific Section 350(a) requirements. The most
      significant of these variations limits inspections of vehicles during on-site
4
    OIG Report Number MH-2007-062, “Follow-Up Audit on the Implementation of the North American Free Trade
    Agreement’s Cross-Border Trucking Provisions,” August 6, 2007. OIG reports can be found on our website:
    www.oig.dot.gov.


                                                     iii
   safety audits to those trucks that are available at the time of the review.
   However, we have not identified any safety impacts arising from these
   differences if the controls cited by FMCSA, particularly checking every truck
   every time for an inspection decal, are put in place.

Further details on our review are provided in exhibit B.

Although we are making no formal recommendations, in our view, the Secretary’s
report to Congress prior to the initiation of the demonstration project should at a
minimum include actions being taken to:

 • Ensure that sufficient plans are in place to carry out the Department’s
   commitment to check every demonstration project truck every time it crosses
   the border into the United States during the demonstration project.

 • Ensure that state enforcement officials understand how to implement recent
   demonstration project guidance for areas such as testing English language
   proficiency among drivers and that training initiatives filter down to the
   roadside inspectors.

 • Address our determination that FMCSA has implemented policies, rules, and
   regulations that differ slightly from the language in 3 of 34 specific Section
   350(a) requirements.

Now that we have issued our report to the Secretary on the proposed
demonstration project, if the Secretary elects to initiate the project following her
report to Congress, we will be required under Section 6901 to monitor and review
the demonstration project and submit an interim and final report to the Secretary
and the Congress.


SUMMARY OF AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE
We provided FMCSA with a draft of this report on August 27, 2007. On
August 27, 2007, FMCSA provided us with its formal comments (see page 31). In
its comments, FMCSA stated that it will submit a report to Congress detailing the
actions the Agency is taking to address each of the three issues we raised in this
report.

                                         #




                                         iv
                               TABLE OF CONTENTS

ISSUES .................................................................................................. 1
    FMCSA Has Not Developed Sufficient Plans for
    Checking Every Truck Every Time .................................................... 1
    FMCSA Needs To Take Further Action so That State
    Enforcement Officials Understand How To Implement
    Recent Demonstration Project Guidance .......................................... 2
    FMCSA Has Implemented Policies and Rules That
    Differ Slightly From the Language in the Section 350(a)
    Requirements .................................................................................... 5

DATA NEEDED TO EVALUATE THE DEMONSTRATION
PROJECT .............................................................................................. 7

EXHIBIT A. OBJECTIVES, SCOPE, AND
METHODOLOGY AND PRIOR OIG AUDITS ....................................... 9

EXHIBIT B. FURTHER DETAILS ON OUR REVIEW ........................ 14

EXHIBIT C. OIG QUESTIONS FOR THE EVALUATION
PANEL ................................................................................................. 23

EXHIBIT D. MAJOR CONTRIBUTORS TO THIS
REPORT .............................................................................................. 30

APPENDIX A. FMCSA MANAGEMENT COMMENTS ...................... 31

APPENDIX B. PUBLIC LAW 107-87, SECTION 350(a) .................... 32
                                                                                                                1




ISSUES

FMCSA Has Not Developed Sufficient Plans for Checking Every Truck
Every Time
FMCSA has not developed and implemented complete, coordinated plans for
checking trucks and drivers participating in the demonstration project as they cross
the border. Without having site-specific plans in place and fully coordinated with
CBP and the states, the Department’s commitment to check every demonstration
project truck every time it crosses the border into the United States is at risk.
These checks are important because they will review the driver’s license to ensure
that the vehicle is driven by a licensed driver and that the truck has an inspection
decal issued by the Commercial Vehicle Safety Alliance (CVSA). These decals
show that the vehicle received a safety inspection in the last 3 months. If the
vehicle lacks the decal, a safety inspection is required before the truck enters the
United States.

On June 26 and June 28, 2007, we directly observed inspections at three high-
volume United States-Mexico border crossings: Otay Mesa, California, and the
Ysleta and Bridge of the Americas ports of entry in El Paso, Texas 5 (see figure 1
on next page). We observed that FMCSA’s established monitoring and
enforcement mechanisms were in place. However, neither FMCSA nor CBP had
issued site-specific guidance on how they would ensure that every demonstration
project truck would be checked every time. FMCSA officials on site in El Paso
offered their plan to accomplish this task; this included positioning staff near
compound exits to identify project trucks, which will have a DOT number ending
in an “X.” This screening will need to be done visually at the border crossing
because an automated screening system used by CBP cannot currently identify
project participants. However, at the time of our visits, there was no indication
that CBP or the states would allow placement of staff to conduct such visual
screening, as planned by FMCSA. In addition, no automated system was in place
to identify demonstration project participants at the crossings.




5
    From January 2006 through July 2006, DOT reported 448,552 truck crossings at El Paso, Texas, and 427,994 truck
    crossings at Otay Mesa, California.


Issues
                                                                                   2



  Figure 1. Long Lines of Trucks Waiting To Enter the United States
                            From Mexico




         Trucks at the El Paso/Ysleta, Texas border crossing (June 2007, OIG)

After our visits, FMCSA and CBP agreed to develop a plan to check every truck
every time, but, as of July 2007, no coordinated, site-specific plans to carry out
such checks were in place. FMCSA stated that it would have plans outlined by
August 22, 2007, but we have not received any outlines or completed plans. In
our opinion, not having site-specific plans developed and in place prior to
initiating the demonstration project will increase the risk that project participants
will be able to avoid the required checks. Site-specific plans should ensure
coordination among FMCSA, CBP, and state officials. Additionally, these plans
should include quality control measures to ensure that FMCSA’s system for
checking each demonstration project truck is effective.


FMCSA Needs To Take Further Action so That State Enforcement
Officials Understand How To Implement Recent Demonstration
Project Guidance
Since state enforcement officials conducted approximately 3.1 million vehicle and
driver inspections in FY 2006 to enforce motor carrier safety rules, it is essential
that these officials understand how to implement demonstration project
requirements. Our interviews of key state enforcement officials between
June 22 and August 1, 2007, identified a general readiness to enforce safety rules
during the demonstration project. However, a number of concerns related to
specific elements of the project were expressed by state officials. The officials
also noted areas where state procedures related to the demonstration project were
not in place. FMCSA issued guidance for some of these areas after our interviews,



Issues
                                                                                                                          3


but it still needs to address all the concerns and guidance issues raised in order to
provide assurance that demonstration project requirements will be met.

Concerns Expressed by State Officials: We interviewed state officials
responsible for coordinating motor carrier safety programs (state Motor Carrier
Safety Assistance Program coordinators) in 49 states 6 and the District of
Columbia. Officials from 44 of the 50 states said that state inspectors were ready
to enforce safety rules during the demonstration project. Of the remaining states,
five officials stated that they were not ready to enforce these requirements and one
did not respond. Twenty-six of the 50 state officials expressed 1 or more concerns
as shown in figure 2 below.

Figure 2. State Motor Carrier Safety Assistance Program Coordinator
                         Areas of Concern

    ENGLISH LANGUAGE                                                                                    10

        OUT-OF-SERVICE                                                     6

                DATABASE                             3

          ENFORCEMENT                                3

             IMMIGRATION              1

                 SECURITY             1

                   DECALS             1

                    OTHER                                                         7

                              0              2             4              6             8             10             12
                                                           Number of State Officials

Source: OIG analysis of states’ responses to OIG interviews conducted from June 22 to August 1, 2007

As figure 2 shows, the most common concern, cited by 10 of the 50 states, was
whether Mexican drivers would be able to sufficiently communicate with
enforcement officials in English. For example, one official was concerned that a
Mexican driver would not be able to understand directions when an inspector is
underneath his vehicle and another was concerned about being able to discuss
carrier ownership questions with the driver.



6
    Hawaii was excluded from our interviews, and, for the purposes of this report, the District of Columbia is treated as a
    state.


Issues
                                                                                    4


State Procedures Lacking To Implement the Demonstration Project: Officials
in some states reported that state procedures specifically related to the
demonstration project were not in place. For example, Mexican carriers involved
in the demonstration project are prohibited from transporting goods from one point
in the United States to another location within the United States. Despite this,
officials in seven states said they did not have procedures in place for enforcing
restrictions on point-to-point deliveries within the United States.

FMCSA Guidance and Training: After we began our interviews with state
enforcement officials, FMCSA issued guidance on English language proficiency,
prepared educational materials on point-to-point restrictions, and planned further
training related to a number of the states’ concerns. However, FMCSA needs to
ensure that states’ concerns about English language proficiency and point-to-point
transportation have been resolved and that training filters down to roadside
officials who must enforce motor carrier safety regulations during the
demonstration project. Specifically:

    • With regard to English language proficiency, Federal rules 7 require drivers to
      read and speak the English language sufficiently to converse with the general
      public, understand highway traffic signs and signals in the English language,
      respond to official inquiries, and make entries on reports and records. To
      reinforce this regulation, FMCSA issued guidance on July 20, 2007, on English
      language proficiency, which states that the inspector must conduct the
      interview of the driver in English. The guidance also includes minimum
      inquiries for the interview. In addition, the guidance provides strategies for
      communication with non-native speakers of English, including examples of
      driver interview questions, and instructs the inspector to place a driver out of
      service for failing the test. FMCSA should monitor implementation of this
      guidance so that the states’ concerns are addressed and the guidance is
      consistently implemented by state officials.

    • With regard to point-to-point restrictions, Federal rules 8 prohibit Mexico-
      domiciled motor carriers from providing point-to-point transportation services,
      including express delivery services, within the United States for goods other
      than international cargo. The transportation of domestic freight between points
      in the United States is known as “cabotage.” Therefore, a demonstration
      project carrier providing point-to-point transportation services in the United
      States is operating beyond the scope of its provisional operating authority and
      must be placed out of service. During June 2007, FMCSA, assisted by CVSA,
      authored a brochure detailing cabotage rules, regulations, and procedures that


7
    49 C.F.R. § 391.11(b)(2) (2006).
8
    49 C.F.R. § 365.501(b) (2006) and 67 FR 71795 (November 27, 2002).


Issues
                                                                                               5


      enforcement officers can use to identify cabotage violations. As of
      August 16, 2007, this brochure had not been distributed to state officials.

    • With regard to training, in August 2007, FMCSA plans to provide “train-the-
      trainer” instruction through the International Association of Chiefs of Police
      and CVSA for state commercial vehicle enforcement officers. According to
      CVSA, the training is designed to inform uniformed state patrol officers of the
      requirements for entry of commercial vehicles into the United States from
      Canada and Mexico. It also is designed to provide information on required
      driver and vehicle documentation as well as resources available from Federal
      and state commercial vehicle enforcement agencies. FMCSA should take
      appropriate follow-up action so that this training filters down to the roadside
      inspectors responsible for enforcing safety rules throughout the United States.

In summary, FMCSA has provided or prepared guidance and has begun working
toward training state enforcement officials. However, it should develop a
mechanism to obtain feedback on the success of current training and guidance
activities. Without such a mechanism, FMCSA cannot ensure that critical
information reaches the roadside inspectors who must enforce Federal safety rules
during the demonstration project and that the states’ concerns expressed to us are
resolved.


FMCSA Has Implemented Policies and Rules That Differ Slightly From
the Language in the Section 350(a) Requirements
We verified that FMCSA implemented 31 of the 34 specific provisions we
identified 9 in Section 350(a) of the FY 2002 Act. These provisions established
pre-conditions for processing applications from Mexican carriers to operate
beyond the commercial zones. For the three remaining provisions, FMCSA
implemented policies and interim final rules that differ slightly from the language
in the Section 350(a) requirements. However, our present audit work does not
identify any safety impacts arising from these differences if the controls cited by
FMCSA, particularly checking every truck every time for an inspection decal, are
put in place and operate effectively. The 34 requirements we identified are
provided in appendix B. The three provisions where differences with Section
350(a) were identified are discussed below.




9
    We identified 34 distinct requirements from among the 10 sub-sections of Section 350(a).


Issues
                                                                                                                        6


Vehicle Inspections During Pre-Authorization Safety Audits (PASA): While
Section 350(a)(1)(B)(vi) requires a PASA inspection 10 of Mexican vehicles
without an inspection decal, the FMCSA interim final rule 11 limits such
inspections to “available vehicles.” FMCSA officials provided three reasons for
this difference:

     • FMCSA officials stated that it is an essentially meaningless requirement to
       inspect all vehicles during the PASA because Section 350 does not require that
       the vehicles pass inspection and receive a decal at the time of the PASA in
       order for the carrier to obtain provisional operating authority. We confirmed
       that although vehicles were inspected during the PASA, Section 350 does not
       make the award of provisional operating authority contingent on all of the
       carriers’ vehicles passing inspection during the PASA. In addition, carriers are
       not restricted to using only those vehicles inspected during the PASA for the
       demonstration program.

     • FMCSA officials stated that it is unrealistic to expect Mexican carriers to have
       every vehicle that they intend to use beyond the border zone available during
       the PASA and to have FMCSA inspectors spend prolonged periods at the
       facility. This FMCSA position was challenged by one commentator on the
       March 2002 interim final rule implementing the Section 350(a) requirement.
       The commentator questioned limiting inspections to available trucks simply to
       make the inspections more convenient for the FMCSA auditors or Mexican
       applicants. Because FMCSA has not yet finalized this rule and addressed the
       comments, it has not provided its rationale to the public for limiting
       inspections to available vehicles during the PASA.

     • FMCSA officials emphasized that the key vehicle inspection occurs at the
       border. Our present audit work does not identify any safety impacts resulting
       from limiting inspections during the PASA to available trucks if the
       coordinated, site-specific plans to implement decal checks for every
       demonstration project truck every time it enters the United States are in place
       and working effectively and if states exercise adequate oversight of decals they
       receive from CVSA. 12 The state agencies are responsible for ensuring that
       decals are safeguarded and used properly.


10
     The PASA is a FMCSA review conducted at the motor carrier’s principal place of business, in which the motor
     carrier must demonstrate that it has: (1) a controlled substance and alcohol testing program, (2) a system for
     complying with hours-of-service requirements, (3) proof of insurance, (4) records of periodic inspections of vehicles
     for use in the United States, and (5) qualified drivers for U.S. operations. After these are verified, FMCSA officials
     then perform vehicle inspections and verify whether the motor carrier can comply with Federal regulations.
11
     67 FR 12702, 12715 (March 19, 2002).
12
     According to CVSA, in calendar year 2006, it provided states with approximately 1.8 million decals and Mexican
     authorities with 200 decals. CVSA told us that it distributes tamper-resistant serialized decals to state agencies for
     certified inspectors to place on vehicles that have passed inspection.


Issues
                                                                                 7


Border License Checks of Drivers Working for Mexican Carriers: FMCSA
policy implementing the Section 350(a)(3) requirement to electronically verify the
status and validity of each Mexican commercial vehicle driver’s license crossing
the border specifies license checks for only those drivers domiciled in Mexico.
Strictly interpreted, this policy would not include Mexican commercial vehicle
drivers who are domiciled outside of Mexico. However, since the automated
system FMCSA has in place for inspectors to check commercial driver licenses
can access data for drivers domiciled in either the United States or Mexico, our
present audit work does not identify any impact on the operation of the safety
program resulting from this difference.

Safety Rules for Longer Combination Vehicles:                 The FMCSA rule
implementing Section 350(a)(1)(B)(v) has not been updated to include all safety
rules that currently apply to Mexican carriers. In 2002, FMCSA defined the safety
rules relevant to Mexican motor carriers as 49 C.F.R. Parts 382 through 399. In
2004, FMCSA promulgated Part 380, which establishes minimum requirements
for operators of longer combination vehicles and their instructors. 13 While this
rule is not specifically mentioned in FMCSA guidance for conducting the PASA,
we confirmed that the application process emphasizes the applicant must comply
with all safety rules. This includes a requirement for a certification by Mexican
carriers that they understand and will comply with all current Federal Motor
Carrier Safety Regulations, Hazardous Material Regulations, and Federal Motor
Vehicle Safety Standards. Therefore, our present audit work does not identify any
impact on the operation of the safety program resulting from this difference.


DATA NEEDED TO EVALUATE THE DEMONSTRATION PROJECT
This initial audit does not examine whether FMCSA has established sufficient
mechanisms to determine if the demonstration project will adversely affect motor
carrier safety or the issue of whether Mexican participants in the demonstration
project are a representative sample of the Mexican motor carriers who would be
expected to operate in the United States. These are issues we are required to
address in future audits of the demonstration project, if it is initiated. We sent
questions to FMCSA on May 4, 2007, which we thought might be relevant as the
Department develops performance metrics and success criteria for the
demonstration program. These questions are provided in exhibit C.

Although we are making no formal recommendations, in our view, the Secretary’s
report to Congress prior to the initiation of the demonstration project should at a
minimum include actions being taken to:


13
     49 C.F.R. § 380 (2006).


Data Needed To Evaluate the Demonstration Project
                                                                                8


 • Ensure that sufficient plans are in place to carry out the Department’s
   commitment to check every demonstration project truck every time it crosses
   the border into the United States during the demonstration project.

 • Ensure that state enforcement officials understand how to implement recent
   demonstration project guidance related to areas such as testing English
   language proficiency among drivers and that training initiatives filter down to
   the roadside inspectors.

 • Address our determination that FMCSA has implemented policies, rules, and
   regulations that differ slightly from the language in 3 of 34 specific Section
   350(a) requirements.




Data Needed To Evaluate the Demonstration Project
                                                                                                                     9




EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY AND
PRIOR OIG AUDITS


OBJECTIVES
The objectives of this audit were to determine whether FMCSA has: (1)
established sufficient monitoring and enforcement mechanisms to ensure that
Mexican motor carriers that are granted provisional operating authority comply
with U.S. Federal motor carrier laws and regulations as well as requirements
associated with the demonstration project, (2) complied with each of the Section
350(a) requirements contained in the FY 2002 Act, and (3) established sufficient
mechanisms to ensure that provisional operating authority is only granted to motor
carriers domiciled in Mexico that can comply with United States Federal motor
carrier laws and regulations as well as requirements associated with the
demonstration project.


SCOPE AND METHODOLOGY
This performance audit was conducted from June 2007 through August 2007 14 in
accordance with Generally Accepted Government Auditing Standards as
prescribed by the Comptroller General of the United States. We performed such
tests as we considered necessary to detect fraud, waste, and abuse.

Our work included a review of documentation, interviews with Federal, state, and
Commercial Vehicle Safety Alliance personnel, and direct observations of vehicle
inspections and safety reviews in the United States and Mexico. Further details on
the scope and methodology are discussed below.

Since Mexican carrier long-haul authority has not yet been granted, we could not
fully test and analyze certain enforcement mechanisms focused on Mexican long-
haul carriers that FMCSA has put in place to meet requirements. For example, in
order to fully test how effectively roadside inspections conducted by state officials
ensure that Mexican motor carrier vehicles meet U.S. Federal motor carrier laws
and regulations after entering the United States, we would need actual data on the
number of these inspections, the number and type of violations detected, and
whether any corrective action was required. Since demonstration project trucks


14
     We conducted additional research between March 2007 and May 2007 in response to a March 7, 2007, request from
     the House Committee on Transportation and Infrastructure that addressed issues similar to those in Section 6901 of
     the U.S. Troop Readiness, Veterans’ Care, Katrina Recovery, and Iraq Accountability Appropriations Act, 2007.


Exhibit A. Objectives, Scope, and Methodology and Prior OIG Audits
                                                                                 10


have not yet been cleared to enter the United States, data on state roadside
inspections involving these trucks does not exist.

Our audit of monitoring and enforcement mechanisms focused on mechanisms at
the United States-Mexico border and on those in place throughout the United
States. At the United States-Mexico border, we directly observed FMCSA and
state operations at three major truck border crossings: Otay Mesa, California, and
the Ysleta and Bridge of the Americas (BOTA) crossings in El Paso, Texas. At
these locations, we observed the overall crossing operation and vehicle and driver
inspections; observed inspection-related equipment; reviewed inspection reports
and other available documentation; and interviewed officials from FMCSA, CBP,
and the state to determine: (1) the current roles and procedures they used to permit
the entry of Mexican motor carriers into the United States and their subsequent
operations beyond the entry point, (2) the working relationships between border
staff of the different agencies at each crossing, (3) inspection procedures and
certifications, and (4) the degree to which specific demonstration project
requirements have been put in place. In El Paso, we were accompanied by a
safety expert with extensive law enforcement experience to provide technical
assistance with our work.

To determine the status of on-site protocols covering the screening of project
trucks at each United States-Mexico border location, FMCSA use of CBP
automated systems, and other issues related to coordination between FMCSA and
CBP, we met with a CBP official in Washington, D.C.

To understand the monitoring and enforcement mechanisms within the United
States, we observed operations and inspections at a Virginia truck inspection
station. Further, we interviewed lead motor carrier safety officials from 49 states
(Hawaii was excluded from the interviews) and the District of Columbia to
ascertain if they believed they were prepared to enforce demonstration project
requirements and if they had any concerns with mechanisms for monitoring
Mexican motor carriers with provisional operating authority and enforcement of
safety rules. We also confirmed that systems and procedures have been
established to monitor Mexican carrier operating authority violations and driver
convictions. For Mexican carriers that are considered high risk, or required to go
through an immediate review because they have committed certain violations,
FMCSA plans to use a compliance review to determine whether provisional
operating authority should continue. To gain a better understanding of these
reviews, we observed the practices employed for a U.S. compliance review.

We obtained and reviewed documentation to determine whether FMCSA
complied with each of the Section 350(a) requirements included in the FY 2002
Act (Public Law 107-87). We identified 34 distinct Section 350(a) requirements.



Exhibit A. Objectives, Scope, and Methodology and Prior OIG Audits
                                                                                11


To determine whether FMCSA has established sufficient mechanisms to ensure
that provisional operating authority is only granted to Mexico-domiciled motor
carriers that can comply with Federal motor carrier safety laws and regulations and
the project requirements, we reviewed the results from the 32 PASAs conducted
by FMCSA between February 22 and May 8, 2007. Specifically, we compared the
applications and safety audit reports to FMCSA rules and requirements established
for the application process, including proper completion of the application,
FMCSA review of the application, and the safety audit. We reviewed the
applications these 32 carriers submitted for the project and the evidence of
management oversight of the application review process. We also verified that
FMCSA’s report of the safety audit had supporting documentation. We followed
up with FMCSA on the 6 carriers, of the 32, that did not pass the safety audit to
determine if the reasons for the failure were in accordance with FMCSA policy.
As of August 13, 2007, FMCSA had completed a total of 50 PASAs.

In July 2007, we observed two FMCSA pre-authorization safety audits performed
in Ciudad Juarez and Tijuana, Mexico. We were accompanied by an independent
expert with experience in United States and Mexico commercial trucking and
safety enforcement. Additionally, we met with representatives from CVSA to
obtain an understanding of their controls over CVSA truck inspection decals. We
also assessed FMCSA controlled substance and alcohol testing mechanisms. We
attended a FMCSA safety auditor training class covering how to assess Mexican
motor carrier drug testing programs during the pre-authorization safety audit and
observed a test facility in Nuevo Laredo, Mexico, and a mobile test facility
operated by Mexico.

After completing safety audits, and before provisional operating authority is
granted, FMCSA is required to post for public comment the names of the accepted
carriers in the FMCSA Register. We compared the carrier names in the
applications and the completed safety audits for the 26 carriers who passed the
PASA to the Mexican motor carrier names posted in FMCSA Register notices to
ensure that this was done. We attempted to review public comments, but,
according to FMCSA, none were provided for the carriers they posted. Finally, to
determine whether FMCSA was performing a final insurance check of the carrier
before issuing provisional operating authority in accordance with FMCSA policy,
we assessed FMCSA’s process and use of the Licensing and Insurance System
(L&I). However, we did not test the accuracy of the data insurance companies
supplied to FMCSA through the L&I system.


Results From Prior OIG Audits Used in This Audit
We used the results from prior OIG audits, to the extent necessary, to gain an
understanding of FMCSA mechanisms established in response to the FY 2002 Act


Exhibit A. Objectives, Scope, and Methodology and Prior OIG Audits
                                                                               12


and to determine the status of any issues that could impact the announced project.
Previous OIG reports issued in June 2002, May 2003, January 2005, and August
2007 addressed eight criteria contained in Section 350(c) of the FY 2002 Act and
issues found pertaining to Section 350(a) and (b) requirements and general border
operation or truck safety. The eight criteria that we reviewed and that FMCSA
must have in place are:

 • filling positions at the southern border with trained inspectors;
 • training inspectors to conduct on-site inspections;
 • filling positions by not transferring inspectors;
 • having an hours-of-service policy;
 • having sufficiently accurate, accessible, and integrated information
   infrastructure and adequate telecommunications links;
 • ensuring there is adequate capacity to conduct meaningful inspections at the
   southern border;
 • having sufficient databases to allow safety monitoring of Mexican carriers and
   drivers; and
 • having measures to ensure effective enforcement and monitoring of Mexican
   carrier licensing.

Our most recent report in August 2007 reported that despite FMCSA’s progress,
additional improvements were needed in two of the Section 350(c) criteria. First,
the system used to monitor Mexican commercial drivers’ license convictions, the
52nd State System, still contained data inconsistencies. Second, at one high-
volume Mexican bus crossing, physical space and capacity issues prevented
inspections during high-volume holiday periods. Additionally, FMCSA had not
issued additional guidance that would make it mandatory for inspectors to check
the vehicle identification number to ensure that Mexican vehicles had complied
with manufacturing safety standards and to record the vehicle identification
number in inspection records. Finally, it was not clear whether the controls in
place ensured that valid specimens for drug and alcohol testing were being
collected before being sent to a certified laboratory.

In its comments to the August 2007 report, FMCSA concurred with the report
recommendations and proposed corrective actions, which we accepted.
Specifically, FMCSA stated that it would ensure that all southern border states
would complete action plans to improve data consistency. A monthly data report
would be implemented to identify data inconsistencies and to notify the states of
these inconsistencies. FMCSA also planned to modify its commercial bus
inspection plan to ensure adequate coverage at the Lincoln-Juarez crossing in
Laredo, Texas, during periods of peak bus traffic. In addition, it planned to
conduct or contract for a review of the effectiveness of its commercial bus
inspection plan.


Exhibit A. Objectives, Scope, and Methodology and Prior OIG Audits
                                                                               13


FMCSA agreed to require its inspectors to look at the vehicle identification
number for all long-haul, Mexico-domiciled carriers to check vehicle compliance
with U.S. manufacturing standards and to record this information. FMCSA also
stated it will revise its system software so that it will automatically remind its
inspectors to enter the vehicle identification number. Finally, FMCSA agreed to
establish an action plan, in coordination with DOT’s Office of Drug and Alcohol
Policy and Compliance, to conduct audits of Mexico’s drug collection facilities
and laboratories and to work with Mexico to meet U.S. requirements.

Other OIG reports issued in this area include:

 • OIG Report Number MH-2005-032, “Follow-Up Audit of the Implementation
   of the North American Free Trade Agreement’s Cross-Border Trucking
   Provisions,” January 3, 2005.

 • OIG Report Number MH-2003-041, “Follow-Up Audit on the Implementation
   of Commercial Vehicle Safety Requirements at the U.S.-Mexico Border,”
   May 16, 2003.

 • OIG Report Number MH-2002-094, “Implementation of Commercial Vehicle
   Safety Requirements at the U.S.-Mexico Border,” June 25, 2002.

 • OIG Report Number MH-2001-096, “Motor Carrier Safety at the U.S.-Mexico
   Border,” September 21, 2001.

 • OIG Report Number MH-2001-059, “Status of Implementing the North
   American Free Trade Agreement’s Cross-Border Trucking Provisions,”
   May 8, 2001.

 • OIG Report Number TR-2000-013, “Mexico-Domiciled Motor Carriers,”
   November 4, 1999.

 • OIG Report Number TR-1999-034, “Motor Carrier Safety Program for
   Commercial Trucks at U.S. Borders,” December 28, 1998.




Exhibit A. Objectives, Scope, and Methodology and Prior OIG Audits
                                                                              14




EXHIBIT B. FURTHER DETAILS ON OUR REVIEW
This exhibit provides additional background on the Section 350 requirements and
the OIG role. It also provides further details on our review of FMCSA’s
monitoring and enforcement mechanisms for Mexican carriers and the
demonstration project, FMCSA compliance with Section 350(a) of the FY 2002
Act, and FMCSA’s mechanisms for granting operating authority to project
participants.


Background on Section 350 Requirements and the OIG Role
With the signing of NAFTA in December 1992, the United States and Mexico
consented to cross-border trucking throughout both countries by January 1, 2000.
However, in December 1995, the U.S. Secretary of Transportation indefinitely
delayed implementation of NAFTA cross-border provisions, citing safety reasons.

Between FY 2002 and FY 2007, Section 350 of the FY 2002 Act and subsequent
appropriation legislation prohibited FMCSA from using Federal funds to review or
process Mexico-domiciled motor carrier applications to operate beyond the
U.S. commercial zones until certain pre-conditions and safety requirements were
met. Section 350 provisions, including the requirement for an annual review by
our office and the Secretary’s certification of border operations, are summarized
below.

 • Section 350 Pre-Conditions for Reviewing or Processing Mexican Long-
   Haul Applications: FMCSA must meet a number of pre-conditions contained
   in Section 350(a) before it can review or process Mexican motor carrier
   applications to operate as a long-haul carrier beyond the municipal and
   commercial zones at the southern border. This includes requiring on-site
   safety reviews of motor carriers in Mexico in some instances.

 • Section 350 Pre-Condition for Vehicles To Haul Hazardous Materials:
   Section 350(b) restricts vehicles owned or leased by Mexican motor carriers
   from carrying hazardous materials beyond commercial zones until an
   agreement is reached between the United States and Mexico. This agreement
   must hold hazardous material drivers from both countries to substantially the
   same requirements.

 • Section 350 OIG Review and Secretary Certification of Border
  Operations: Section 350(c) prohibits Mexican motor carriers from operating
  beyond the commercial zone under conditional or permanent authority granted
  by FMCSA until two events occur. First, the OIG must conduct a review


Exhibit B. Further Details on Our Review
                                                                                     15


   within the first 180 days of the law’s enactment to verify whether or not eight
   criteria are met. These criteria relate to the hiring and training of inspectors,
   establishment of inspection facilities, and development of safety processes and
   procedures for Mexican long-haul motor carriers. Second, the Secretary of
   Transportation must certify, in a manner addressing the OIG’s findings, that
   opening of the border does not pose an unacceptable safety risk to the
   American public.

The OIG issued the initial report under the Section 350(c) criteria in June 2002. In
November 2002, the Secretary of Transportation certified that opening the border
does not pose an unacceptable risk to the American public.

Although Section 350(c) does not require the Secretary of Transportation to re-
certify the safety of opening the border after the initial certification, it does direct
the OIG to perform annual reviews using the eight Section 350(c) criteria. The
OIG issued follow-up reports in May 2003, January 2005, and August 2007 that
addressed the eight criteria and other border operations issues covered under the
FY 2002 Act.

 • Our January 2005 report concluded that FMCSA had sufficient staff, facilities,
   equipment, and procedures in place to substantially meet the eight
   Section 350(c) criteria. However, the report made nine recommendations to
   FMCSA, four of which addressed criteria relevant to the eight criteria that the
   OIG is required to review.

 • Our August 2007 report assessed the actions that FMCSA took in response to
   our January 2005 recommendations. We found that despite the progress
   FMCSA had made, further improvements were needed in four areas. These
   included improving the consistency of data used to monitor Mexican
   commercial driver convictions in the United States, ensuring adequate Mexican
   bus inspection coverage during busy periods, implementing a FMCSA policy
   to check and record vehicle identification numbers during an inspection, and
   coordinating with DOT offices to ensure that drug and alcohol testing issues
   are addressed. In response to our report, FMCSA provided an action plan in
   which it committed to make improvements in each area.

Further information pertaining to our prior reports can be found in exhibit A.


FMCSA’s Monitoring and Enforcement Mechanisms for Mexican
Carriers and the Demonstration Project (Objective 1)
As described by the Department in notices published in the Federal Register on
May 1 and June 8, 2007, the demonstration project, if initiated, will include
monitoring and enforcement mechanisms that FMCSA has already established,

Exhibit B. Further Details on Our Review
                                                                                 16


such as inspections at the border. We have addressed these mechanisms in our
prior reports. However, the demonstration project plans have also highlighted a
number of specific provisions for demonstration project participants, which
include the following:

 • Each driver and vehicle entering the United States will be checked.

 • Each driver will be required to be proficient in the English language.

 • A carrier will not be permitted to transport hazardous materials.

 • A vehicle will not be permitted to transport passengers.

 • A carrier may not provide point-to-point transportation services within the
   United States.
Given our prior audit work regarding the monitoring and enforcement mechanisms
FMCSA already had in place before the announcement of the demonstration
project, we focused our current work on determining whether FMCSA had
implemented the specific provisions of the demonstration project. As discussed
in the “Issues” section of this report (see page 1), we found that FMCSA has not
developed sufficient plans for checking every demonstration project truck every
time and has not done enough to ensure that state enforcement officials understand
demonstration project guidance.

          Figure 3. Inspection Facility in Otay Mesa, California




                Source: OIG (June 2007)

Our work included direct observations and interviews with state officials (see
figure 3) at judgmentally selected border crossings where we confirmed that
existing mechanisms, such as truck inspections at the border, remain in place.



Exhibit B. Further Details on Our Review
                                                                                17


During our interviews with state officials throughout the country, we asked
whether:

 • truck inspections will be conducted differently for Mexican-domiciled motor
   carriers participating in the demonstration project than for U.S. carriers;

 • there are procedures in place for inspectors to check for violations pertaining
   specifically to the demonstration project, including driver English proficiency,
   transport of passengers or hazardous materials, and point-to-point (cabotage)
   violations;

 • there are any concerns regarding the demonstration project; and

 • state truck safety inspectors are ready to enforce FMCSA regulations during
   the demonstration project.

Our discussion in the “Issues” section of this report (see page 3) noted that
officials from five states stated that they were not ready to enforce FMCSA safety
rules for the demonstration project. These five states were Montana, Nebraska,
Nevada, Rhode Island, and Utah. Maryland officials did not respond to this
question. The seven states reporting that they did not have procedures in place for
enforcing restrictions on point-to-point deliveries within the United States
included the District of Columbia, Florida, Georgia, Louisiana, New Mexico,
Utah, and Washington.


FMCSA Compliance With Requirements in Section 350(a)
(Objective 2)
The FY 2002 Act and subsequent appropriation legislation prohibited FMCSA
from using Federal funds to review or process Mexico-domiciled motor carrier
applications to operate beyond the United States commercial zones until certain
pre-conditions in Section 350(a) of the act were met.          We identified
34 requirements in Section 350(a) that FMCSA must follow. See appendix B for a
list of the 34 requirements identified.




Exhibit B. Further Details on Our Review
                                                                                 18


Generally, Section 350(a) requires that FMCSA establish requirements for:

 • conducting pre-authorization safety audits of all Mexican motor carriers who
   apply for long-haul authority;

 • performing full safety compliance reviews of those carriers within 18 months
   of granting conditional operating authority; and

 • monitoring and enforcing activities such as inspecting Mexican vehicles,
   verifying operators’ licenses, and ensuring adequate capacity at border
   crossings.

We examined FMCSA’s documentation and conducted additional research to
determine if FMCSA had implemented all 34 requirements. As a result, we
verified that FMCSA implemented 31 of these requirements. While FMCSA did
address the three remaining requirements, which included definitions of safety
regulations, vehicle inspections during on-site safety audits, and border license
checks of drivers working for Mexican carriers, it did so in a manner that was
slightly different from what Section 350(a) required. In the “Issues” section of the
report (see pages 5 through 7), we discuss these differences.

In determining that 31 of the 34 requirements were implemented, we based our
determination for 1 provision, Section 350(a)(9), on information obtained from
CBP, an agency not under our audit jurisdiction, and our prior audit coverage.
Section 350(a)(9) calls for FMCSA to:

     require that commercial vehicles operated by a Mexican motor carrier
     [defined in Section 350 as carriers operating beyond the commercial zones]
     only enter the United States at commercial border crossings where and when
     a certified motor carrier safety inspector is on duty and where adequate
     capacity exists to conduct a sufficient number of meaningful vehicle safety
     inspections and place vehicles out-of-service.

CBP has the authority to enforce the language in this provision regarding entry to
the United States because it controls ports-of-entry for Mexican commercial
vehicles. FMCSA provided us with a letter from CBP dated July 18, 2007, stating
that “Mexican commercial vehicles with authority to operate beyond the
commercial zones will be permitted to enter the United States only at commercial
border crossings and only when a certified motor carrier safety inspector is on
duty.”

Our prior work has shown that buses, which are also commercial vehicles, are
currently inspected at commercial truck crossings. Bus capacity issues identified
in our previous work occurred at separate border crossings designated for buses.


Exhibit B. Further Details on Our Review
                                                                                 19


Given the July 2007 CBP commitment discussed above to limit Mexican
commercial vehicles to manned commercial border crossings, we accepted the
CBP action as complying with the requirement since it would restrict buses to the
manned crossings.


FMCSA’s Mechanisms for Granting Provisional Operating Authority
to Mexican Carriers (Objective 3)
FMCSA’s mechanisms for granting provisional authority to operate beyond the
commercial zones at the United States-Mexico border are contained in its June
2007 Federal register notice regarding the demonstration project and in earlier
published rules and guidance. The primary mechanisms FMCSA established are
the carrier application review process and the PASA. This includes a requirement
for an on-site review at the applicant’s place of business in Mexico. Additionally,
FMCSA relies on public comments regarding the Mexican carrier and a
verification of carrier insurance coverage before provisional operating authority is
granted. The following chart summarizes the process established by FMCSA.

     Figure 4. Process for Granting OP-1 (Long-Haul) Provisional
                         Operating Authority

                     Mexican Motor Carrier Submits Application

                             FMCSA Reviews Application

              FMCSA Conducts Pre-Authorization Safety Audit (PASA)

                       Notice of Carrier’s Pending Authority Is
                           Published in FMCSA Register

                     Opportunity Is Provided for Public Comment

                             Insurance Coverage Is Verified

                      Provisional Operating Authority Is Granted

Between February 22, 2007, and August 13, 2007, FMCSA conducted 50 pre-
authorization safety audits of Mexican carriers seeking provisional authority in the
demonstration project. Our review covered 32 of the completed safety audit
reports available at the start of our audit and the related application materials.
Additionally, in July 2007, we observed two other pre-authorization safety audits


Exhibit B. Further Details on Our Review
                                                                                         20


conducted in Mexico. Based on our review, FMCSA has properly implemented
the mechanisms it has established to grant provisional operating authority.

Our review of 32 applications for provisional operating authority by Mexican
motor carriers showed that each of the 32 applications met the basic guidelines
established by FMCSA. The applications were complete, prepared in English, and
included the necessary information on the number of trucks and drivers the
company intended to operate in the United States during the project.

The 32 pre-authorization safety audit reports we reviewed were supported with
documentation and complied with the established procedures. Each safety audit
addressed the five critical elements required by FMCSA for a carrier to pass the
audit. These included: (1) a controlled substance and alcohol testing program, (2)
a system for complying with hours-of-service requirements, (3) proof of insurance,
(4) records of periodic inspections of vehicles for use in the United States, and (5)
qualified drivers for U.S. operations. As a result of the FMCSA safety audit,
FMCSA failed six carriers for not implementing one of the five critical elements,
as follows (see table):

    Table. Carriers That Failed the Pre-Authorization Safety Audit
  Carrier             Reason(s) Mexican Carrier Did Not Pass Safety Audit
     1      Drug and Alcohol Testing Program Not In Place
     2      Hours of Service Program Not In Place
     3      Drug and Alcohol Testing, Vehicle Inspection Programs Not In Place
     4      Drug and Alcohol Testing, Vehicle Inspection Programs Not In Place
     5      Vehicle Inspection Program Not In Place
     6      Hours of Service, Insurance, and Vehicle Inspections Programs Not In Place
 Source: OIG analysis of FMCSA data

The 26 carriers that passed FMCSA’s PASA identified 140 commercial motor-
vehicles intended for U.S. operations. Of these, 78 vehicles (56 percent) were
inspected by FMCSA during the PASA. Vehicles that passed the inspection
received or retained a CVSA decal required to operate in the United States.

Our July 2007 observations of two FMCSA pre-authorization safety audits in
Mexico revealed that the pre-authorization safety audits were done in accordance
with FMCSA procedures. Only one of the two safety audits we observed included
inspections conducted under the North American Standard Level V (Vehicle Only)
Inspection procedure since the other carrier we visited failed the verification phase
and, consequently, FMCSA was not required to inspect its vehicles.




Exhibit B. Further Details on Our Review
                                                                                             21


Figure 5. Inspection of Mexican Applicant’s Vehicle During the PASA




                      PASA at Carrier’s Facility in Ciudad Juarez, Mexico (July 2007, OIG)

During the safety audit, we observed FMCSA efforts to verify data provided by
the Mexican carriers using other available information. For example, FMCSA
officials conducting the PASA:

     • used insurance company loss reports, vehicle repair records, driver
       qualification files and information from FMCSA’s database to identify
       accidents involving the motor carrier.

     • compared driver time sheets to U.S. vehicle inspections in order to uncover
       hours-of-service violations.

     • contacted the third-party consortium administering the drug and alcohol testing
       program and reviewed the contract and rate of testing for compliance with U.S.
       requirements. 15

     • verified the licenses of the Mexican drivers identified for U.S. operations
       through a check of the FMCSA database that included status information on
       Mexican commercial driver’s license holders.

While the FMCSA officials conducting the PASA took steps to verify the on-site
data, we noted that certain information was not available to them. Specifically,
information pertaining to vehicle inspections, accident reports, and driver
violations maintained by Mexican authorities was not available to FMCSA unless
such information was included in company records. A FMCSA official stated that
either such information was not available from the Mexican authorities or the
databases containing such information were still under development.

While insurance information was verified during the safety audit, FMCSA
guidance did not require, and the FMCSA officials conducting the PASA did not
15
     49 C.F.R. § 40 (2006).


Exhibit B. Further Details on Our Review
                                                                                22


verify, that the Mexican carrier had insurance coverage for long-haul operations at
the time of the safety audit. Instead, carriers were advised to obtain appropriate
insurance coverage as a prerequisite for obtaining provisional authority. After the
safety audit and prior to issuing provisional authority, FMCSA verifies the
carrier’s insurance coverage through its L&I database. While our testing of the
L&I database was limited, our observation of the system as it applies to U.S.
carriers and an assessment of the most recent Certification and Accreditation for
the L&I System done in conjunction with this audit, found no significant risks
associated with the system.

We also confirmed that mechanisms established to provide for public comments
following a PASA through use of the FMCSA Register were in place. However,
since no public protests had been filed against a Mexican carrier posted in the
Register, and no long-haul authority has been granted under the demonstration
project, we could not fully test FMCSA’s response to a protest and final
procedures for issuing the authority.

Although not required, FMCSA has also reviewed Mexican drug and alcohol test
specimen collection facilities. We attended training for the FMCSA staff
conducting such reviews and observed a review of a Mexican facility in Nuevo
Laredo. Based on our observation at this single facility, the processes at this
facility were generally consistent with U.S. requirements. We have not received
final reports on the review conducted by FMCSA and DOT’s Office of Drug and
Alcohol Policy.




Exhibit B. Further Details on Our Review
                                                                                             23




            EXHIBIT C. OIG QUESTIONS FOR THE EVALUATION PANEL



           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:    INFORMATION: Questions for Evaluation Panel               Date:
                                                                               May 4, 2007
            on Cross-Border Demonstration Program

  From:      Calvin L. Scovel III                                  Reply to
                                                                   Attn. of:   JA-40
             Inspector General
    To:      Jeff Shane
             Under Secretary for Policy

            The Office of Inspector General has been requested by the House Transportation
            and Infrastructure Committee to review the one-year demonstration program to
            grant authority to up to 100 Mexican-domiciled motor carriers to operate beyond
            the commercial zones at the southern border. Specifically, the committee asks us
            to determine whether DOT has established sufficient controls to ensure that the
            demonstration program participants are in full compliance with all U.S. motor
            carrier safety laws and regulations.

            Considering the scope of this request and our responsibility to be independent and
            objective in our work, we informed the Secretary that we viewed our role as
            providing ongoing feedback to the Department on our methodologies and potential
            findings rather than participating as a formal or ex officio member in any advisory
            groups established by the Secretary.

            Consistent with this role, the attachment provides a list of questions we have
            developed based on our prior audit work and preliminary research on the current
            request which may be relevant to developing performance metrics and success
            criteria for the demonstration program. These also may be used by the Evaluation
            Panel responsible for evaluating the safety impacts of allowing Mexican-
            domiciled motor carriers to operate on U.S. roads beyond the commercial zones.




            Exhibit C. OIG Questions for the Evaluation Panel
                                                                               24


The list provides questions addressing the following areas:

   • Safety Data and the Timeframe. These questions address the sufficiency of
     the safety data and the length of time planned for the demonstration
     program given issues we have encountered previously.
   • Participant Screening Questions. These questions address the stated goal
     of checking “every truck, every time.”
   • Assessing the Overall Results of the Demonstration Program. These
     questions address factors influencing the overall assessment of the
     demonstration program.

   We would be glad to discuss these questions with your staff, Federal Motor
   Carrier Safety Administration (FMCSA) personnel, or the Evaluation Panel.
   We will also be sharing this list with the Congressional Committees of
   jurisdiction as we keep them informed on the progress of our work.

   If you have any questions or if we can be of further assistance, please contact
   me at x61959 or Kurt Hyde, Assistant Inspector General for Surface and
   Maritime Programs, at x65630.


   Attachment

   cc: John Hill, FMCSA Administrator
       Evaluation Panel Members (Messrs. Downey, Kolbe, and Mead)




Exhibit C. OIG Questions for the Evaluation Panel
                                                                                                                    25


                 Questions on Cross-Border Demonstration Program

Safety Data and Timeframe Questions:

1. What information exists on safety records for long-haul Mexican carriers
   already operating in the U.S., which could serve as a baseline for assessing the
   safety records of participants in the demonstration program 1 ? We are aware of
   the following Mexican domiciled carriers that could be part of this baseline
   calculation:

      • 1,300 long-haul Mexican carriers discussed in our January 2005 report2 that
        are 55 percent U.S. owned and previously received approval to operate
        outside the commercial zones.

      • Mexican carriers identified as being inspected or involved in crashes
        beyond the border states. Our January 2005 report identified 144 such
        carriers, based on FMCSA records, in the period from 2002-2004, and our
        current work has identified similar numbers in 2005, although reliable
        estimates are difficult to make in this area.

      • At least 5,000 Mexican carriers operating in the commercial zone in
        FY 2005, according to our latest analysis of MCMIS 3 inspection records.

      • Carriers granted “extended authority” to operate beyond the commercial
        zone prior to 2002. We do not know how many of these exist, but have
        been told it would include carriers operating to San Antonio.

2. What measures will be taken to ensure that all crashes involving demonstration
   program participants are reported? Recent University of Michigan studies
   have shown that, for 2003, California and New Mexico reported about 53
   percent and 9 percent respectively of reportable commercial crashes to
   FMCSA. Could such problems lead to under-reporting of crashes for Mexican
   carriers? Conversely, given the increased attention on the Mexican carriers
   could the crash rates for Mexican carriers be artificially inflated in comparison
   to non-Mexican carriers? How will these factors be considered in the
   evaluation?


1
    We have used the terms demonstration program and pilot program interchangeably in these questions although this is
    not meant to imply that we have determined if the program must meet the pilot program criteria set forth in the law.
2
    OIG Report Number MH-2005-032, Follow-up Audit of the Implementation of the North American Free Trade
    Agreement’s Cross-Border Trucking Provisions, January 3, 2005. OIG reports are available on our web site:
    www.oig.dot.gov.
3
    Motor Carrier Management Information System.


Exhibit C. OIG Questions for the Evaluation Panel
                                                                                     26


3. Since state crash reporting to FMCSA does not indicate who was at fault, will
   further work be done to identify fault? Will the Evaluation Panel rely on
   police reports for determining the cause of any fatal crashes, or will they call
   on others to review any fatal crashes involving demonstration program
   participants? Will FMCSA require that all crashes involving demonstration
   program participants be reported even if they do not meet Federal reporting
   criteria (fatality, tow away, or injury)?

4. Will the crash rate calculation use power units or vehicle miles traveled, or
   both, as the normalizing factor (common denominator), and what controls will
   ensure the validity of this data?

5. Is one year a sufficient period of time to collect adequate safety data from
   demonstration program participants for accurate and reliable data analyses of
   any safety issues? Our past and ongoing work has identified a number of
   issues related to this question:

               a. Some crashes may be reported after the demonstration period is
                  ended. Our work indicates that, on average, states took 64 days to
                  report crashes to FMCSA in CY 2005 and 92 days in FY 2004.
                  What steps are being taken to ensure that crash data used to evaluate
                  the demonstration program are as complete as possible and to avoid
                  receiving information on crashes after the decisions are made on the
                  pilot program?

               b. One year is a shorter period than the one used by the system for
                  assessing high-risk U.S carriers. Given that the system used by
                  FMCSA to evaluate the safety risk posed by all motor carriers
                  (SafeStat 4 ) uses 30 months of safety data (weighted towards most
                  recent) to assess the safety risk of U.S. motor carriers, and their
                  selection for compliance reviews, what steps are being taken to
                  ensure that using safety data covering only one year (or less, given
                  reporting delays) will provide sufficient information to assess the
                  safety risk posed by long-haul Mexican carriers participating in the
                  demonstration program?

               c. Compliance reviews that are used by FMCSA to evaluate whether a
                  motor carrier is meeting safety regulations rely on data about crashes
                  over an 18 month period, not 12 months. If compliance reviews are
                  used to assess safety during the demonstration program, will these


4
    Motor Carrier Safety Status Measurement System.


Exhibit C. OIG Questions for the Evaluation Panel
                                                                                                         27


                   compliance reviews be considered valid if 18 months of crash data is
                   not available?

6. Our work has also identified problems in the past associated with incomplete
   reporting of traffic violations cited in conjunction with inspections. For
   example, a police officer may have stopped a truck for speeding and
   subsequently conducted an inspection, but the inspection form does not reflect
   the speeding violation, whether or not a citation was issued. Are there any
   plans to mitigate this issue as it relates to demonstration program participants?

7. Our prior audit work from 2004 5 showed that about 13.4 percent of crashes and
   7.5 percent of inspections are reported inaccurately into the database. What
   steps will be taken to mitigate this issue in the assessment of long-haul
   Mexican carriers and are there reasons to believe that the error rate will be
   greater or lesser with demonstration program participants? Will Mexican
   carriers be allowed to correct inaccurate data using the systems implemented
   by FMCSA following our 2004 report? And, if so, will the calculations of
   safety rates be held up pending resolution of any contested data?

8. Is the available data on enforcement of operating authority sufficient to
   determine the exact nature of reported operating authority violations (for
   example, can cabotage violations be identified)?

9. The FMCSA Administrator testified in March 2007 that trucks involved in the
   demonstration program would be tracked by Vehicle Identification Number
   (VIN) to ensure that only trucks that have passed inspection are allowed to
   operate in the U.S. Our review of MCMIS data for 2005 indicates that only
   about 37 percent of the records for Mexican trucks inspected in that year
   included valid information in the VIN data field. What actions will FMCSA
   take to ensure that the VIN data are recorded by both state and Federal
   inspectors during the demonstration program? Will the need for such training
   delay the demonstration program?

10. Will FMCSA only track and inspect specific power units (identified by VIN)
    and allow any trailer to be towed by pilot program participants; or will they
    also track specific trailers (identified by VIN) used by pilot program
    participants? If so, have any necessary training and modifications to existing
    databases been accomplished to carry out this tracking?




5
    OIG Report Number MH-2004-034, Improvements Needed in the Motor Carrier Safety Status Measurement System,
    February 13, 2004.


Exhibit C. OIG Questions for the Evaluation Panel
                                                                                   28


Participant Screening Questions

11. According to FMCSA, each participant’s driver license will be checked at the
    border every time. What will be considered a successful rate for passing the
    required licensing checks? For example, our current work shows that 16
    percent of the license checks of Mexican domiciled drivers in a one month test
    period showed that the license was not found in the Mexican CDL system.
    What percent would be an acceptable “driver not found” rate for pilot
    participants? How will the failure rate, if any, during license checks of
    Mexican drivers be compared to U.S. drivers?

12. How can you be assured that checks of “every truck, every time” are being
    conducted, unless agreements have been reached with the U.S. Customs and
    Border Protection (CBP) to permit state or FMCSA personnel access to the
    primary screening points or equivalent locations so they may ensure that 100
    percent of demonstration program participants are selected for license
    checks/inspections? Or, alternatively, are automated systems in place to ensure
    that all demonstration program participants are selected for license
    checks/inspections every time they enter the U.S.? Will the demonstration
    program be delayed until such agreements or systems are in place? If not,
    what alternatives have been established?

Assessing the Overall Result of the Demonstration Program:

13. Given that the participants in the demonstration program are volunteers, can
    the group be said to be a representative sample of potential future long-haul
    Mexican operators? If the sample is a judgmental sample, what steps will be
    taken to ensure that it represents a fair sample? If the participants are not
    representative, can the Department still get valid results?

14. How will FMCSA measure the success of the demonstration program? For
    example, will the absence of adverse safety information be sufficient to deem it
    a success or will a specific level of safety performance be required (e.g. a crash
    rate no higher than a certain value). If the former, what will constitute adverse
    safety impact? If the latter, what specific safety level or levels will be
    required?

15. Will any elements of the demonstration program evaluation be designed to test
    the validity of prior determinations made regarding the comparability of the
    Mexican and U.S. systems? The current system and the demonstration
    program operate on the assumption that the Mexican Licencia Federal is
    equivalent to the U.S. Commercial Driver’s License, a determination made by



Exhibit C. OIG Questions for the Evaluation Panel
                                                                                 29


   the Department in 1991. If this determination will not be tested, will the Safety
   Evaluation Panel examine the basis for this prior determination?

16. Information on the Mexican Government website provides detailed
    information on state officials Mexican carriers should contact in Arizona, New
    Mexico, Texas, and California regarding certain fees and taxes generally
    collected on U.S. carriers through the International Registration Plan and
    International Fuel Tax Agreement. These fee and tax plans rely on carriers to
    report fuel they purchase and miles traveled by state. Will the border states be
    handling Mexican carriers for the purposes of these programs? If so, will
    information provided by Mexican carriers to confirm miles traveled also be
    used for safety rates? Further, if such information shows little travel outside
    the border states, does this mean the demonstration program is limited to the
    border states? If so, will this bias the program’s overall result?

17. While the demonstration program does not include passenger carriers, will
    passenger carriers be authorized to apply for long-haul authority if the
    demonstration program is deemed successful? Information published on the
    Internet by the Mexico Ministry of Economy states that while the
    demonstration program excludes passenger carriers, once the border is fully
    opened under NAFTA, cross-border passenger carriers will be allowed to
    operate long-haul in the U.S. If this is the case, would an additional
    demonstration program be required for passenger carriers? If this is not the
    case, should safety issues regarding passenger carriers be considered during the
    demonstration program? Would similar factors apply to hazardous materials
    carriers?




Exhibit C. OIG Questions for the Evaluation Panel
                                                         30




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


  Name                                  Title

  Joe Comé                           Program Director
  Joan Becker                        Project Manager
  David Pouliott                     Project Manager
  Kimberley Bolding                  Senior Auditor
  Pat Conley                         Senior Auditor
  Tony Saraco                        Senior Auditor
  Gerry Sheeran                      Senior Auditor
  Maurice Toval                      Senior Auditor
  Marvin Tuxhorn                     Senior Auditor
  Kate Conway                        Analyst
  Charlie Denno                      Auditor
  Constance Hardy                    Analyst
  Michael Masoudian                  Analyst
  Regan Maund                        Analyst
  Calvin Moore                       Analyst
  Scott Williams                     Analyst
  Tom Lehrich                        Chief Counsel
  Seth Kaufman                       Associate Counsel
  Petra Swartzlander                 Statistician
  Andrea Nossaman                    Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                                           31




           APPENDIX A. FMCSA MANAGEMENT COMMENTS



                                                                Memorandum
           U.S. Department
           Of Transportation

           Federal Motor Carrier
           Safety Administration


Subject:   INFORMATION: Response to the Office of the Inspector                 Date:
           General’s (OIG) Draft Report “FMCSA Compliance                                  August 27, 2007
           with Mexican Motor Carrier Cross-Border Safety
           Recommendations – Initial Report”
           Project No. 07M3008M000

  From:    John H. Hill                                                         Reply to  MC-E
           Administrator                                                        Attn. of: William Quade

  To:      Rebecca Anne Batts
           Acting Assistant Inspector General
             for Surface and Maritime Programs


           The Federal Motor Carrier Safety Administration (FMCSA) appreciates the opportunity to
           review the draft report titled, “FMCSA Compliance with Mexican Motor Carrier Cross-
           Border Safety Requirements-Initial Report.” The FMCSA also appreciates OIG’s efforts
           which resulted in the timely completion of both the audit and report required under section
           6901(b)(l) of Public Law 1 10-28.

           On August 20, 2007, staff from FMCSA and OIG met to review the “Discussion Draft” of
           the report. The FMCSA will submit a report to Congress detailing the actions the Agency is
           taking to address each issue raised by the OIG in this report, as required by section
           6901(b)(2)(A) of Public Law 1 10-28.

           If you need additional information or clarification, please do not hesitate to contact me, or
           William Quade, Associate Administrator for Enforcement and Program Delivery at
           202-366-2172.




           Appendix A. FMCSA Management Comments
APPENDIX B. PUBLIC LAW 107-87, SECTION 350(a)
No.     Section 350                                                         Requirement Language
         Reference
      §350(a)               (a) No funds limited or appropriated in this Act may be obligated or expended for the review or processing of an application by
                            a Mexican motor carrier for authority to operate beyond United States municipalities and commercial zones on the United
                            States-Mexico border until the Federal Motor Carrier Safety Administration—
 1    §350(a)(1)(A)         requires a safety examination of such motor carrier to be performed before the carrier is granted conditional operating authority
                            to operate beyond United States municipalities and commercial zones on the United States-Mexico border;
      §350(a)(1)(B)         requires the safety examination to include—
 2    §350(a)(1)(B)(i)      verification of available performance data and safety management programs;
 3    §350(a)(1)(B)(ii)     verification of a drug and alcohol testing program consistent with part 40 of title 49, Code of Federal Regulations;
 4    §350(a)(1)(B)(iii)    verification of that motor carrier’s system of compliance with hours-of-service rules, including hours-of service records;
 5    §350(a)(1)(B)(iv)     verification of proof of insurance;
 6    §350(a)(1)(B)(v)      a review of available data concerning that motor carrier’s safety history, and other information necessary to determine the
                            carrier’s preparedness to comply with Federal Motor Carrier Safety rules and regulations and Hazardous Materials rules and
                            regulations;
 7    §350(a)(1)(B)(vi)     an inspection of that Mexican motor carrier’s commercial vehicles to be used under such operating authority, if any such
                            commercial vehicles have not received a decal from the inspection required in subsection (a)(5);
 8    §350(a)(1)(B)(vii)    an evaluation of that motor carrier’s safety inspection, maintenance, and repair facilities or management systems, including
                            verification of records of periodic vehicle inspections;
 9    §350(a)(1)(B)(viii)   verification of drivers’ qualifications, including a confirmation of the validity of the Licencia de Federal de Conductor of each
                            driver of that motor carrier who will be operating under such authority; and
 10   §350(a)(1)(B)(ix)     an interview with officials of that motor carrier to review safety management controls and evaluate any written safety oversight
                            policies and practices.
      §350(a)(1)(C)         requires that—
 11   §350(a)(1)(C)(i)      Mexican motor carriers with three or fewer commercial vehicles need not undergo on-site safety examination; however 50
                            percent of all safety examinations of all Mexican motor carriers shall be conducted onsite; and
 12   §350(a)(1)(C)(ii)     such on-site inspections shall cover at least 50 percent of estimated truck traffic in any year.
 13   §350(a)(2)            requires a full safety compliance review of the carrier consistent with the safety fitness evaluation procedures set forth in part
                            385 of title 49, Code of Federal Regulations, and gives the motor carrier a satisfactory rating, before the carrier is granted
                            permanent operating authority to operate beyond United States municipalities and commercial zones on the United States-
                            Mexico border, and requires that any such safety compliance review take place within 18 months of that motor carrier being
                            granted conditional operating authority, provided that—
 14   §350(a)(2)(A)         Mexican motor carriers with three or fewer commercial vehicles need not undergo onsite compliance review; however 50
                            percent of all compliance reviews of all Mexican motor carriers shall be conducted on-site; and




Appendix B. Public Law 107-87, Section 350(a)                                                                                                         32
No.    Section 350                                                   Requirement Language
        Reference
 15   §350(a)(2)(B)   any Mexican motor carrier with 4 or more commercial vehicles that did not undergo an on-site safety exam under (a)(1)(C),
                      shall undergo an on-site safety compliance review under this section.
 16   §350(a)(3)      requires Federal and State inspectors to verify electronically the status and validity of the license of each driver of a Mexican
                      motor carrier commercial vehicle crossing the border;
 17   §350(a)(3)(A)   for every such vehicle carrying a placardable quantity of hazardous materials;
 18   §350(a)(3)(B)   whenever the inspection required in subsection (a)(5) is performed; and
 19   §350(a)(3)(C)   randomly for other Mexican motor carrier commercial vehicles, but in no case less than 50 percent of all other such
                      commercial vehicles.
 20   §350(a)(4)      gives a distinctive Department of Transportation number to each Mexican motor carrier operating beyond the commercial zone
                      to assist inspectors in enforcing motor carrier safety regulations including hours-of-service rules under part 395 of title 49,
                      Code of Federal Regulations;
 21   §350(a)(5)      requires, with the exception of Mexican motor carriers that have been granted permanent operating authority for three
                      consecutive years—
 22   §350(a)(5)(A)   inspections of all commercial vehicles of Mexican motor carriers authorized, or seeking authority to operate beyond United
                      States municipalities and commercial zones on the United States-Mexico border that do not display a valid Commercial
                      Vehicle Safety Alliance inspection decal, by certified inspectors in accordance with the requirements for a Level I Inspection
                      under the criteria of the North American Standard Inspection (as defined in section 350.105 of title 49, Code of Federal
                      Regulations), including examination of the driver, vehicle exterior and vehicle under-carriage;
 23   §350(a)(5)(B)   a Commercial Vehicle Safety Alliance decal to be affixed to each such commercial vehicle upon completion of the inspection
                      required by clause (A) or a re-inspection if the vehicle has met the criteria for the Level I inspection; and
 24   §350(a)(5)(C)   that any such decal, when affixed, expire at the end of a period of not more than 90 days, but nothing in this paragraph shall be
                      construed to preclude the Administration from requiring reinspection of a vehicle bearing a valid inspection decal or from
                      requiring that such a decal be removed when a certified Federal or State inspector determines that such a vehicle has a safety
                      violation subsequent to the inspection for which the decal was granted.
 25   §350(a)(6)      requires State inspectors who detect violations of Federal motor carrier safety laws or regulations to enforce them or notify
                      Federal authorities of such violations;
 26   §350(a)(7)(A)   equips all United States-Mexico commercial border crossings with scales suitable for enforcement action; equips 5 of the 10
                      such crossings that have the highest volume of commercial vehicle traffic with weigh-in-motion (WIM) systems; ensures that
                      the remaining 5 such border crossings are equipped within 12 months; requires inspectors to verify the weight of each Mexican
                      motor carrier commercial vehicle entering the United States at said WIM equipped high volume border crossings; and
 27   §350(a)(7)(B)   initiates a study to determine which other crossings should also be equipped with weigh-in-motion systems;
 28   §350(a)(8)      the Federal Motor Carrier Safety Administration has implemented a policy to ensure that no Mexican motor carrier will be
                      granted authority to operate beyond United States municipalities and commercial zones on the United States-Mexico border
                      unless that carrier provides proof of valid insurance with an insurance company licensed in the United States;




Appendix B. Public Law 107-87, Section 350(a)                                                                                                  33
No.    Section 350                                                      Requirement Language
        Reference
 29   §350(a)(9)       requires commercial vehicles operated by a Mexican motor carrier to enter the United States only at commercial border
                       crossings where and when a certified motor carrier safety inspector is on duty and where adequate capacity exists to conduct a
                       sufficient number of meaningful vehicle safety inspections and to accommodate vehicles placed out-of-service as a result of
                       said inspections.
      §350(a)(10)      publishes—
 30   §350(a)(10)(A)   interim final regulations under section 210(b) of the Motor Carrier Safety Improvement Act of 1999 (49 U.S.C. 31144 note)
                       that establish minimum requirements for motor carriers, including foreign motor carriers, to ensure they are knowledgeable
                       about Federal safety standards, that may include the administration of a proficiency examination;
 31   §350(a)(10)(B)   interim final regulations under section 31148 of title 49, United States Code, that implement measures to improve training and
                       provide for the certification of motor carrier safety auditors;
 32   §350(a)(10)(C)   a policy under sections 218(a) and (b) of that Act (49 U.S.C. 31133 note) establishing standards for the determination of the
                       appropriate number of Federal and State motor carrier inspectors for the United States-Mexico border;
 33   §350(a)(10)(D)   a policy under section 219(d) of that Act (49 U.S.C. 14901 note) that prohibits foreign motor carriers from leasing vehicles to
                       another carrier to transport products to the United States while the lessor is subject to a suspension, restriction, or limitation on
                       its right to operate in the United States; and
 34   §350(a)(10)(E)   a policy under section 219(a) of that Act (49 U.S.C. 14901 note) that prohibits foreign motor carriers from operating in the
                       United States that is found to have operated illegally in the United States.




Appendix B. Public Law 107-87, Section 350(a)                                                                                                        34
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here to
accommodate assistive technology.
               Issues Pertaining to the Proposed NAFTA Cross-Border
                           Trucking Demonstration Project

                          Section 508 Compliant Presentation


Figure 1. Long Lines of Trucks Waiting To Enter the United States From Mexico

Figure 1 is a picture of long lines of Mexican trucks waiting to enter the Customs and
Border Protection primary booths at the El Paso/Ysleta, Texas, border crossing. This
picture was taken by the Office of Inspector General (OIG) during an on-site review in
June 2007.

Figure 2. State Motor Carrier Safety Assistance Program Coordinator Areas of
Concern

Figure 2 is a bar chart that depicts the OIG analysis of state’s responses to an OIG survey
of Motor Carrier Safety Assistance Program Coordinators. The Coordinators’ response
focus on areas of concern related to implementing the demonstration project. The OIG
survey was conducted from June 22 through August 1, 2007, and resulted in the
following categories of concerns and number of concerns per category:

                  English Language            10 concerns
                  Out-Of-Service              6 concerns
                  Database                    3 concerns
                  Enforcement                 3 concerns
                  Immigration                 1 concern
                  Security                    1 concern
                  Decals                      1 concern
                  Other                       7 concerns

Figure 3. Inspection Facility in Otay Mesa, California

Figure 3 is a picture of the enclosed state inspection facility in Otay Mesa, California,
taken by the OIG during an on-site review in June 2007. The picture shows two trucks,
the first truck is already in an inspection bay. The second truck is entering an inspection
bay where a FMCSA inspector is standing. The inspection bay this truck is entering
includes an inspection pit in the floor that can be used to inspect the underside of a truck.
Figure 4. Process for Granting OP-1 (Long-Haul) Provisional Operating Authority

Figure 4 depicts the process FMCSA identified for granting provisional operating
authority for Mexican long-haul carriers.

   •   First, the Mexican motor carrier submits an application.
   •   Second, FMCSA reviews the application.
   •   Third, FMCSA conducts the pre-authorization safety audit (PASA).
   •   Fourth, notice of carrier’s pending authority is published in the FMCSA Register.
   •   Fifth, an opportunity is provided for public comment.
   •   Sixth, the Mexican carrier’s insurance coverage is verified.
   •   Seventh, provisional operating authority is granted to the Mexican carrier by
       FMCSA.

Figure 5. Inspection of Mexican Applicant’s Vehicle During the PASA

Figure 5 is a picture of FMCSA personnel conducting a pre-authorization safety audit at a
Mexican carrier facility in Ciudad Juarez, Mexico, in July 2007. This picture was taken
by the OIG while observing the PASA. The picture shows the front driver’s side of a
truck. The truck’s front hood is opened and the engine compartment is exposed.
Standing next to the truck are FMCSA personnel inspecting the vehicle and two OIG
staff observing the inspection.

Appendix B. Public Law 107-87, Section 350 (a)

Appendix B provides a table identifying the 34 requirements OIG identified under
Section 350(a). Requirements are presented verbatim from the public law.

Section 350(a) overall requirement: No funds limited or appropriated in this Act may be
obligated or expended for the review or processing of an application by a Mexican motor
carrier for authority to operate beyond United States municipalities and commercial
zones on the United States-Mexico border until the Federal Motor Carrier Safety
Administration—

Section 350(a)(1)(A) has one requirement

   • OIG identified requirement number 1: requires a safety examination of such motor
     carrier to be performed before the carrier is granted conditional operating authority
     to operate beyond United States municipalities and commercial zones on the
     United States-Mexico border [Section 350(a)(1)(A)];
Section 350(a)(1)(B) has nine subsections, and requires the safety examination to
include—

   • OIG identified requirement number 2 - verification of available performance data
     and safety management programs [Section 350(a)(1)(B)(i)];
   • OIG identified requirement number 3 - verification of a drug and alcohol testing
     program consistent with part 40 of title 49, Code of Federal Regulations [Section
     350(a)(1)(B)(ii)];
   • OIG identified requirement number 4 - verification of that motor carrier’s system
     of compliance with hours-of-service rules, including hours-of service records
     [Section 350(a)(1)(B)(iii)];
   • OIG identified requirement number 5 - verification of proof of insurance [Section
     350(a)(1)(B)(iv)];
   • OIG identified requirement number 6 - a review of available data concerning that
     motor carrier’s safety history, and other information necessary to determine the
     carrier’s preparedness to comply with Federal Motor Carrier Safety rules and
     regulations and Hazardous Materials rules and regulations [Section
     350(a)(1)(B)(v)];
   • OIG identified requirement number 7 - an inspection of that Mexican motor
     carrier’s commercial vehicles to be used under such operating authority, if any
     such commercial vehicles have not received a decal from the inspection required
     in Section 350(a)(5) [Section 350(a)(1)(B)(vi)];
   • OIG identified requirement number 8 - an evaluation of that motor carrier’s safety
     inspection, maintenance, and repair facilities or management systems, including
     verification of records of periodic vehicle inspections [Section 350(a)(1)(B)(vii)];
   • OIG identified requirement number 9 - verification of drivers’ qualifications,
     including a confirmation of the validity of the Licencia de Federal de Conductor of
     each driver of that motor carrier who will be operating under such authority
     [Section 350(a)(1)(B)(viii)];
   • OIG identified requirement number 10 - an interview with officials of that motor
     carrier to review safety management controls and evaluate any written safety
     oversight policies and practices [Section 350(a)(1)(B)(ix)].

Section 350(a)(1)(C) has two subsections and requires that:

   • OIG identified requirement number 11 - Mexican motor carriers with three or
     fewer commercial vehicles need not undergo on-site safety examination; however
     50 percent of all safety examinations of all Mexican motor carriers shall be
     conducted onsite [Section 350(a)(1)(C)(i)];
   • OIG identified requirement number 12 - such on-site inspections shall cover at
     least 50 percent of estimated truck traffic in any year [Section 350(a)(1)(C)(ii)].

Section 350(a)(2) has two subsections and requires that:

   • OIG identified requirement number 13 - requires a full safety compliance review
     of the carrier consistent with the safety fitness evaluation procedures set forth in
     part 385 of title 49, Code of Federal Regulations, and gives the motor carrier a
     satisfactory rating, before the carrier is granted permanent operating authority to
     operate beyond United States municipalities and commercial zones on the United
     States-Mexico border, and requires that any such safety compliance review take
     place within 18 months of that motor carrier being granted conditional operating
     authority, provided that [Section 350(a)(2)]:
   • OIG identified requirement number 14 - Mexican motor carriers with three or
     fewer commercial vehicles need not undergo onsite compliance review; however
     50 percent of all compliance reviews of all Mexican motor carriers shall be
     conducted on-site [Section 350(a)(2)(A)];
   • OIG identified requirement number 15 - any Mexican motor carrier with 4 or more
     commercial vehicles that did not undergo an on-site safety exam under Section
     350(a)(1)(C), shall undergo an on-site safety compliance review under this section
     [Section 350(a)(2)(B)].

Section 350(a)(3) has three subsections and requires that:

   • OIG identified requirement number 16 - Federal and State inspectors to verify
     electronically the status and validity of the license of each driver of a Mexican
     motor carrier commercial vehicle crossing the border;
   • OIG identified requirement number 17 - for every such vehicle carrying a
     placardable quantity of hazardous materials [Section 350(a)(3)(A)];
   • OIG identified requirement number 18 - whenever the inspection required in
     Section 350(a)(5) is performed [Section 350(a)(3)(B)];
   • OIG identified requirement number 19 - randomly for other Mexican motor carrier
     commercial vehicles, but in no case less than 50 percent of all other such
     commercial vehicles [Section 350(a)(3)(C)].

Section 350(a)(4) has one requirement.

   • OIG identified requirement number 20 - gives a distinctive Department of
     Transportation number to each Mexican motor carrier operating beyond the
     commercial zone to assist inspectors in enforcing motor carrier safety regulations
       including hours-of-service rules under part 395 of title 49, Code of Federal
       Regulations [Section 350(a)(4)].

Section 350(a)(5) has three subsections and requires that:

   • OIG identified requirement number 21 - requires, with the exception of Mexican
     motor carriers that have been granted permanent operating authority for three
     consecutive years [Section 350(a)(5)]—
   • OIG identified requirement number 22 - inspections of all commercial vehicles of
     Mexican motor carriers authorized, or seeking authority to operate beyond United
     States municipalities and commercial zones on the United States-Mexico border
     that do not display a valid Commercial Vehicle Safety Alliance inspection decal,
     by certified inspectors in accordance with the requirements for a Level I
     Inspection under the criteria of the North American Standard Inspection (as
     defined in section 350.105 of title 49, Code of Federal Regulations), including
     examination of the driver, vehicle exterior and vehicle under-carriage [Section
     350(a)(5)(A)];
   • OIG identified requirement number 23 - a Commercial Vehicle Safety Alliance
     decal to be affixed to each such commercial vehicle upon completion of the
     inspection required by clause (A) or a re-inspection if the vehicle has met the
     criteria for the Level I inspection [Section 350(a)(5)(B)]; and
   • OIG identified requirement number 24 - that any such decal, when affixed, expire
     at the end of a period of not more than 90 days, but nothing in this paragraph shall
     be construed to preclude the Administration from requiring re-inspection of a
     vehicle bearing a valid inspection decal or from requiring that such a decal be
     removed when a certified Federal or State inspector determines that such a vehicle
     has a safety violation subsequent to the inspection for which the decal was granted
     [Section 350(a)(5)(C)].

Section 350(a)(6) has one requirement.

   • OIG identified requirement number 25 - requires State inspectors who detect
     violations of Federal motor carrier safety laws or regulations to enforce them or
     notify Federal authorities of such violations [Section 350(a)(6)].

Section 350(a)(7) has two subsections and requires that:

   • OIG identified requirement number 26 - equips all United States-Mexico
     commercial border crossings with scales suitable for enforcement action; equips 5
     of the 10 such crossings that have the highest volume of commercial vehicle
     traffic with weigh-in-motion (WIM) systems; ensures that the remaining 5 such
     border crossings are equipped within 12 months; requires inspectors to verify the
     weight of each Mexican motor carrier commercial vehicle entering the United
     States at said WIM equipped high volume border crossings [Section
     350(a)(7)(A)]; and
   • OIG identified requirement number 27 - initiates a study to determine which other
     crossings should also be equipped with weigh-in-motion systems [Section
     350(a)(7)(B)].

Section 350(a)(8) has one requirement.

   • OIG identified requirement number 28 - the Federal Motor Carrier Safety
     Administration has implemented a policy to ensure that no Mexican motor carrier
     will be granted authority to operate beyond United States municipalities and
     commercial zones on the United States-Mexico border unless that carrier provides
     proof of valid insurance with an insurance company licensed in the United States
     [Section 350(a)(8)].

Section 350(a)(9) has one requirement.

   • OIG identified requirement number 29 - requires commercial vehicles operated by
     a Mexican motor carrier to enter the United States only at commercial border
     crossings where and when a certified motor carrier safety inspector is on duty and
     where adequate capacity exists to conduct a sufficient number of meaningful
     vehicle safety inspections and to accommodate vehicles placed out-of-service as a
     result of said inspections [Section 350(a)(9)].

Section 350(a)(10) has five subsections and requires that FMCSA publish:

   • OIG identified requirement number 30 - interim final regulations under section
     210(b) of the Motor Carrier Safety Improvement Act of 1999 (49 U.S.C. 31144
     note) that establish minimum requirements for motor carriers, including foreign
     motor carriers, to ensure they are knowledgeable about Federal safety standards,
     that may include the administration of a proficiency examination [Section
     350(a)(10)(A)];
   • OIG identified requirement number 31 - interim final regulations under section
     31148 of title 49, United States Code, that implement measures to improve
     training and provide for the certification of motor carrier safety auditors [Section
     350(a)(10)(B)];
• OIG identified requirement number 32 - a policy under sections 218(a) and (b) of
  that Act (49 U.S.C. 31133 note) establishing standards for the determination of the
  appropriate number of Federal and State motor carrier inspectors for the United
  States-Mexico border [Section 350(a)(10)(C)];
• OIG identified requirement number 33 - a policy under section 219(d) of that Act
  (49 U.S.C. 14901 note) that prohibits foreign motor carriers from leasing vehicles
  to another carrier to transport products to the United States while the lessor is
  subject to a suspension, restriction, or limitation on its right to operate in the
  United States [Section 350(a)(10)(D)]; and
• OIG identified requirement number 34 - a policy under section 219(a) of that Act
  (49 U.S.C. 14901 note) that prohibits foreign motor carriers from operating in the
  United States that is found to have operated illegally in the United States [Section
  350(a)(10)(E)].
